No.

 

IN THE
SUPREME COURT OF THE UNITED STATES

Erik Egbert, Petitioner,
v.

Robert Boule, Respondent.

CERTIFICATE OF SERVICE

I, Sarah M. Harris, counsel for the Petitioner and a member of the Bar of this Court,
certify that, on July 30, 2021, three copies of the Petition for a Writ of Certiorari in the
above-captioned case were sent by third-party commercial carrier for delivery overnight
and one copy was sent by electronic mail to the following counsel:

Breean L. Beggs Gregory Donald Boos
PAUKERT & TROPPMANN, PLLC W. Scott Railton

522 W. Riverside Ave., Suite 560 CASCADIA CROSS-BORDER LAW
Spokane, WA 99201 1305 11th St., Suite 301

(509) 232-7760 Bellingham, WA 98225
bbeggs@pt-law.com (360) 671-5945

gdboos@cascadia.com
srailton@cascadia.com

Counsel for Respondent

I further certify that all parties required to be served have been served.

bed M Wie

SARAH M. Harris

Counsel of Record
WILLIAMS & CONNOLLY LLP
725 Twelfth St., N.W.
Washington, DC 20005
(202) 434-5000
sharris@we.com
